           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


               ACCURACY OF
 TITLE II DISABILITY INSURANCE BENEFITS
             PROCESSED WITH
 WORKERS’ COMPENSATION SETTLEMENTS

      August 2008     A-04-07-17059




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                        SOCIAL SECURITY
MEMORANDUM

Date:   August 13, 2008                                                        Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Accuracy of Title II Disability Insurance Benefits Processed with Workers’
        Compensation Settlements (A-04-07-17059)


        OBJECTIVE
        Our objective was to determine the payment accuracy of Title II Disability Insurance (DI)
        claims with offsets related to workers’ compensation (WC) lump sum settlements.
        Specifically, our work focused on DI claims in which the WC benefits were annotated as
        “not proven” in Social Security Administration (SSA) systems.

        BACKGROUND
        SSA administers the Old-Age, Survivors and Disability Insurance program under Title II
        of the Social Security Act, as amended (Act). 1 Section 223 of the Act requires that SSA
        provide monthly DI benefits to individuals who meet specific disability requirements. 2

        Workers injured on the job may qualify for DI benefits in addition to benefits under State
        and Federal WC programs. 3 In general, injured workers receive compensation for lost
        wages through State WC programs. Each State administers its own WC program.
        State WC agencies generally adjudicate claims and act as the depository for WC
        disability claim records. However, employers may purchase WC insurance from private
        insurance companies, receive it through a State insurance fund, or elect self-insurance.

        When an injured worker qualifies for both State WC and Federal DI benefits, the
        combined benefits could result in workers receiving more in disability payments than
        they earned before they became disabled. To prevent this, Congress enacted the WC
        offset provision under section 224 of the Act, which requires that SSA reduce DI
        benefits by the amount of any other disability benefit paid under any law or plan of the

        1
            42 U.S.C. 401 and 423.
        2
            42 U.S.C. § 423.
        3
            Program Operations Manual System (POMS), DI 00115.055 Workers’ Compensation (WC).
Page 2 - The Commissioner


United States, a State, or a political subdivision. 4 In this instance, SSA reduces the DI
benefit based on an offset calculation set forth in its policy and procedures. 5

State WC benefits are paid via weekly, biweekly, or monthly payments and/or with lump
sum settlements. A lump sum settlement is typically based on the remaining WC
payments due the disabled worker. 6 To process a DI claim with a lump sum settlement,
SSA must prorate the lump sum WC settlement based on facts presented in the
settlement agreement.

The following DI claim example illustrates how SSA prorates a lump sum WC settlement
and offsets the DI benefits. For example, an injured worker is awarded a lump sum
settlement of $130,000, including attorney fees and medical expenses totaling $21,000.
The worker’s life expectancy is 396 months. SSA records indicate the individual
(beneficiary) is eligible for a $1,069 monthly DI benefit. Table 1 provides the steps in
the proration of the lump sum settlement with the resulting WC offset.

             Table 1: Proration of a WC Lump sum Settlement with DI Offset
      Steps to Prorate Lump Sum Settlement and Offset 7                  Amount
      Gross Lump Sum Settlement Amount                                  $130,000
      Deduct Excludable Expenses—Attorney Fees and Medical               $21,000
      Expenses
      Net Lump Sum Amount—or Amount Paid to the Beneficiary            $109,000
      Computed Monthly WC Benefit—Net Lump Sum Amount Divided by
                                                                            $275
      Life Expectancy ($109,000/396)

      Monthly DI Benefit Before WC Offset                                                     $1,069
      Deduct Computed Monthly WC Benefit                                                        $275
      Monthly DI Benefit Payable—after WC offset                                                $794




4
    42 U.S.C. § 424a.
5
    POMS, DI 520: Workers’ Compensation/Public Disability Benefit (WC/PDB) Offset.
6
 A lump sum settlement typically represents all the remaining WC payments due the disabled worker.
The lump sum award must be prorated to determine the amount and length of time to offset the
beneficiary’s Title II DI benefits.
7
 The lump sum proration and WC offset calculation have been simplified for illustration purposes.
Accordingly, the example should not be used as a guideline to calculate an individual’s WC offset.
Page 3 - The Commissioner


Our previous audits, which are detailed in Appendix B, revealed weaknesses in the
payment calculations of Title II DI claims involving WC benefits. Generally we
determined that most of the payment errors resulted from human error. For example,
we noted that SSA personnel did not always verify the amount of WC payments made
to the DI beneficiary by the State or insurance carrier. This information is essential in
calculating the amount to be offset. Additionally, we noted that SSA personnel
misinterpreted or incorrectly applied the amount of WC payments, including lump sum
settlements, to the offset calculation. Based on the payment errors identified in
previous audit work, we encouraged SSA to explore alternate methods for obtaining,
standardizing and applying State WC information.

In June 2004, SSA implemented the Title II Redesign Release 3 (Redesign) to improve
the automated processing of Title II initial claims applications and post-entitlement
actions, both of which involve WC offset claims. The Redesign streamlined the WC
offset process to reduce manual actions and expanded the Master Beneficiary Record
(MBR) 8 to include details of the settlement. Specifically, the Redesign added a data
field in which staff could record whether the lump sum settlement information was
verified with the State, insurance carrier or court. MBRs established before the
Redesign did not contain fields for specific information regarding lump sum settlements.
As a result, redesigned MBRs were annotated with a “not proven” status in the WC
verification field. The “not proven” status remains on the MBR until a claim requires an
action and the lump sum settlement data are verified.

Because the Redesign assigned the “not proven” status to these WC claims,
information was not available to indicate whether the WC information was properly
verified—as required by SSA policies and procedures. 9 Generally, SSA policy states
that if the claimant cannot provide proof of State WC benefits, verification should be
obtained from the insurance carrier, a State WC agency, or the Courts. 10 WC
verification can be in various forms such as a

•      printout of benefits from an insurance carrier or State records,
•      WC award notice,
•      court order,
•      copy of a benefits check, or
•      a WC settlement agreement. 11

8
  SSA establishes an MBR for each DI claimant. The MBR maintains pertinent information needed to
accurately pay benefits to the claimant and all entitled dependents. The information maintained includes
identification data (name, Social Security number, date of birth, address), earnings history, type and date
of disability, monthly DI benefit amounts, and the reason for terminating or suspending benefit payments.
Thus, any change in a claimant’s or dependent’s situation must be reflected on the MBR to ensure its
integrity and the accuracy of benefit payments.
9
    POMS, DI 52001.155.
10
     POMS, DI 52001.155. A.1. and B.
11
     POMS, DI 52001.155. A.3.
Page 4 - The Commissioner


Because the MBR indicates the WC lump sum settlements were not verified in these
cases, we were concerned that SSA staff may have calculated the WC offsets using
incorrect information, which would lead to payment errors.

SCOPE AND METHODOLOGY
For the period January 1, 1998 through May 5, 2006, we identified 30,250 Title II DI
claims that SSA considered for a WC offset action and the WC lump sum settlement
was coded “not proven” on the MBR. From this population, we randomly selected a
sample of 250 cases for our review. To determine the accuracy of these 250 cases, we:

•   reviewed WC lump sum settlement verification available in SSA’s records,
•   obtained WC verification from States,
•   verified WC benefits with the injured worker, and
•   determined whether the verified WC data agreed with the WC rates recorded on the
    MBR.

If the verified WC lump sum data did not agree with the WC rates recorded on the MBR,
we

•   calculated the WC offset based on the proven WC benefits data, and
•   compared the total benefits paid to the total benefits owed.

Further information regarding our scope and methodology as well as our sampling
methodology and results is in Appendices C and D, respectively.

RESULTS OF REVIEW
We commend SSA’s continued efforts to improve the payment accuracy of DI claims
with a WC offset. Only 1 of the 250 sampled cases that had a “not proven” status
assigned after the Redesign had a material payment error—a $26,000 overpayment.
Moreover, SSA recorded accurate WC lump sum settlement information on the MBR for
212 of the 250 (84.8 percent) cases. However, for the remaining 38 cases
(15.2 percent), SSA recorded incorrect WC lump sum information on the MBR. For
37 of the 38 cases, the incorrect WC information did not cause a material payment
error. Based on the 38 cases identified above, we estimate that approximately
4,600 cases have incorrect WC lump sum settlement data recorded on the MBR (see
Appendix D).
Page 5 - The Commissioner


Although a payment error did not occur in most of the cases with incorrect WC
information in this sample, our prior audit work has shown that cases with incorrect WC
data are at a greater risk of error. Given the high incidence of incorrect payment data
and the propensity for these cases to have errors, we encourage SSA to continue
pursuing efforts to mitigate the risk of incorrect WC information being input to the
system—thereby, reducing the risk of related payment errors.

INCORRECT WORKERS’ COMPENSATION DATA—NO PAYMENT ERROR

SSA reported the incorrect WC lump sum settlement information on the MBR for
38 (15.2 percent) of our 250 sampled cases. However, payment errors did not occur in
37 of these cases. The primary reasons that payment errors did not occur were (1) the
proration of the lump sum benefits ended before the DI benefits began and (2) the
beneficiary had high average current earnings—in either situation a WC offset was not
applicable. In several other cases, the WC information recorded on the MBR was not
significantly different from the verified WC information, thus a material payment error did
not occur. While payment errors did not occur for these 37 cases, we believe cases
with incorrect WC information are at risk of having WC offset calculation errors that
result in payment errors.

BENEFICIARY OVERPAID

SSA overpaid one beneficiary $26,000. 12 The payment error occurred because SSA
(1) recorded and used the incorrect lump sum settlement information and (2) did not
account for an annuity that was awarded as part of the settlement. Specifically, SSA
used a higher settlement amount and fewer expenses (medical and attorney) to prorate
the WC benefits for offset. The lump sum proration error alone would not have resulted
in a WC offset because the beneficiary had high average current earnings. However,
SSA did not recognize a 5-year annuity paid in monthly installments of $1,114. Had
SSA included the monthly annuity in the WC offset calculation, the beneficiary’s DI
benefits would have been offset. The combined WC offset calculation errors resulted in
a $26,000 overpayment. Table 2 compares the WC data recorded on the MBR to the
verified lump sum settlement data.




12
  Under separate cover, we asked SSA to review this case. We provided a detailed summary of the case
along with supporting information and the case folder.
Page 6 - The Commissioner


              Table 2: Comparison of MBR Data to Verified WC Data
                                                MBR         Verified-
            Workers’ Compensation Data       Lump sum      Lump sum
                                                Data          Data
        Lump sum Amount                        $50,000       $65,000
        Less: Medical and Attorney Expenses    $12,500       $50,000
        Net: Lump sum Amount                   $37,500       $15,000
        Annuity Payment (monthly)                 $0         $1,114

CONCLUSIONS AND RECOMMENDATIONS
We acknowledge SSA’s commitment to improving the payment accuracy of the DI
claims with WC offset—one of the Agency’s more complex workloads. The Redesign
assigned a “not proven” status to the MBRs of DI claims involving certain WC lump sum
settlements, thereby causing doubt as to whether the WC information was accurate.
However, our review determined that only 1 of the 250 sampled cases had a material
payment error—a $26,000 overpayment. Further, the WC information was accurate for
212 of the 250 (84.8 percent) sampled DI claims. While we are encouraged that only
1 material payment error existed in the sampled cases, we remain concerned that
38 cases (15.2 percent) had incorrect WC information, which increases the risk of
payment errors. As stated in our prior audits, we encourage SSA to continue to explore
all possible avenues to improve the processing of DI claims with WC offsets.
Accordingly, we recommend that SSA:

1. Collect the $26,000 overpayment from the beneficiary whose DI benefits were
   improperly offset.

AGENCY COMMENTS AND OIG RESPONSE
The Agency agreed with our recommendation. The full text of the Agency’s comments
is included in Appendix E.




                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Prior Audit Reports
APPENDIX C – Scope and Methodology
APPENDIX D – Sampling Methodology and Results
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
DI       Disability Insurance
MBR      Master Beneficiary Record
POMS     Program Operations Manual System
SSA      Social Security Administration
U.S.C.   United States Code
WC       Workers’ Compensation
                                                                Appendix B

Prior Audit Reports
         Social Security Administration, Office of the Inspector General
 Reports Related to Payment Accuracy in Disability Insurance Claims Involving
                          Workers’ Compensation Offsets
  Common
                                                                       Date
Identification                        Report Title
                                                                      Issued
   Number
                The Social Security Administration Incorrectly
                Paid Attorney Fees on Disability Income Cases
A-04-98-62001                                                       March 2000
                When Workers’ Compensation Payments Were
                Involved
                The Social Security Administration’s Workers’
A-06-03-13022 Compensation Data Match with the State of             April 2003
                Texas
                Pending Workers’ Compensation: The Social
A-08-02-12064 Security Administration Can Prevent Millions in       June 2003
                Title II Disability Overpayments
                Title II Disability Insurance Benefits with
A-04-02-21054 Workers’ Compensation Underpayment Errors              July 2003
                Exceeding $70,000
                The Social Security Administration’s Clean-up of
A-04-03-13042 Title II Disability Insurance Cases with a           October 2004
                Workers’ Compensation Offset
                The Social Security Administration’s Match of
A-06-05-15024 Disability Insurance Records with Texas              August 2005
                Workers’ Compensation Payment Data
                Follow-up of Pending Workers’ Compensation:
A-08-05-25132 The Social Security Administration Can Prevent      September 2005
                Millions in Title II Disability Overpayments
                Payments Resulting from Disability Insurance
                Actions Processed via the Social Security
A-04-05-15042                                                       April 2006
                Administration’s Manual Adjustment, Credit, and
                Award Processes
                Implementation of Workers’ Compensation in
A-14-06-16049                                                       June 2006
                Title II Redesign Release 3
                Title II Disability Insurance Benefits with a
A-04-05-15133                                                     November 2006
                Workers’ Compensation Offset
                                                                        Appendix C

Scope and Methodology
We reviewed a random sample of 250 Disability Insurance (DI) claims from a population
of 30,250 DI cases the Social Security Administration (SSA) considered for a workers’
compensation (WC) offset action, and the WC lump sum settlement was coded “not
proven” in the SSA records between January 1, 1998 and May 5, 2006.

To accomplish our audit objective, we:

•   Interviewed SSA personnel regarding procedures to process DI/WC offset claims.
•   Reviewed relevant laws and SSA’s policies and procedures.
•   Reviewed previous reports pertaining to DI claims with a WC offset.
•   Queried SSA’s Master Beneficiary Record; Payment History Update System; and
    Retirement, Survivors, and Disability Insurance Payment History and Worksheet.

For each of the 250 sampled cases, we:
•   Obtained SSA’s DI case folder and paperless file and reviewed all relevant
    documents related to the WC offset. When WC verification was not available, we
    obtained WC verification from the responsible State or verified the WC benefits with
    the injured worker.

For cases whose WC verification did not agree with the data recorded in SSA systems,
we:
•   Completed SSA’s Interactive Comps Facility screen to calculate the WC offset and
    resulting DI benefits.
•   Prepared an SSA Form 2204 to compare the total benefits paid to the total benefits
    owed.

The SSA entities reviewed were the Offices of Income Security Programs and Disability
Programs under the Deputy Commissioner for Retirement and Disability Policy. The
electronic data used for this audit were sufficiently reliable to meet our audit objectives.
Our tests of internal controls were limited to gaining an understanding of the laws,
regulations and policies that govern the processing of DI claims with a WC offset and
performing the audit steps identified above. We conducted our audit from January 2007
to February 2008 in Atlanta, Georgia, and Baltimore, Maryland. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards required that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.
                                                                      Appendix D

Sampling Methodology and Results
Sampling Methodology
We reviewed a random sample of 250 Disability Insurance (DI) claims for which the
Social Security Administration (SSA) considered a workers’ compensation (WC) offset
action, and the WC lump sum settlement was coded “not proven” on the Master
Beneficiary Record (MBR). We selected our sample from a universe of 30,250 Title II
DI cases with a “not proven” status that met our selection criteria during the period
January 1, 1998 through May 5, 2006.

Sampling Results

Estimation of DI Claims (MBRs) With Incorrect WC Lump Sum Data

                            Attribute Appraisal Projections

           Population and Sample Data                   Number of Cases
           Population                                         30,250
           Sample Size                                          250
           Cases with Incorrectly Recorded WC Data
                                                                38
           on the MBR
           Projection to Population                     Number of Cases
           Lower Limit                                         3,509
           Point Estimate                                      4,598
           Upper Limit                                         5,877

Note: All projections were made at the 90-percent confidence level.
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      July 23, 2008                                                         Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      David V. Foster /s/
           Executive Counselor to the Commissioner

Subject:   Office of the Inspector General (OIG) Draft Report, “Accuracy of Title II Disability Insurance
           Benefits Processed with Workers’ Compensation Settlements” (A-04-07-17059) --
           INFORMATION



           We appreciate OIG’s efforts in conducting this review. Our response to the report findings and
           recommendation is attached.

           Please let me know if we can be of further assistance. Direct inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.

           Attachment:
           SSA Response




                                                         E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, "ACCURACY OF TITLE II DISABILITY INSURANCE BENEFITS
PROCESSED WITH WORKER’S COMPENSATION SETTLEMENTS" (A-04-07-17059)


Thank you for the opportunity to review and comment on the draft report. We appreciate your
acknowledgement of our efforts to improve the processing of disability claims with Worker’s
Compensation (WC) offset. Although we have made great strides, as indicated in your review,
there is still concern regarding the accuracy of the WC information. We made systems changes
and provided training to our employees; however, additional work is still necessary to improve
this workload. We will continue to explore and improve our methods for obtaining,
standardizing, and applying WC information.

Recommendation 1

Collect the $26,000 overpayment from the beneficiary whose Disability Insurance benefits were
improperly offset.

Comment

We agree. We will begin the overpayment collection process once we obtain the necessary
information on the particular claim involved.




                                              E-2
                                                                      Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, Southern Audit Division, (205) 801-1650

   Frank Nagy, Audit Manager, (404) 562-5552

Acknowledgments

In addition to those named above:

   Valerie Ledbetter, Senior Auditor

   Brennan Kraje, Statistician

   Charles Lober, Information Technology Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-04-07-17059.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
